No. 20-

 

 

IN THE

Supreme Court of the United States

MARYLAND SHALL ISSUE, INC., et al.,

Petitioners,
v.

LAWRENCE HoGa, in his capacity of
Governor of Maryland,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,631 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 21, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
